Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MEDICARE COULD COLLECT
BILLIONS IF PHARMACEUTICAL
   MANUFACTURERS WERE
 REQUIRED TO PAY REBATES
     FOR PART B DRUGS




                    Daniel R. Levinson
                     Inspector General

                     September 2013
                     OEI-12-12-00260
EXECUTIVE SUMMARY: MEDICARE COULD COLLECT BILLIONS IF
PHARMACEUTICAL MANUFACTURERS WERE REQUIRED TO PAY
REBATES FOR PART B DRUGS
OEI-12-12-00260

WHY WE DID THIS STUDY

Statutorily mandated rebates enabled Medicaid to recoup a substantial percentage of the
$28 billion spent on prescription drugs in 2011. That same year, Medicare Part B
expenditures exceeded $16 billion on prescription drugs; however, no similar rebate
authority exists for Part B to reduce the costs of drugs to the program. In response to a
congressional request, the Office of Inspector General (OIG) estimated in 2011 that if
pharmaceutical manufacturers had been required to pay rebates similar to those under
Medicaid for 20 high-expenditure Part B brand-name drugs, Medicare could have
collected up to $2.4 billion in rebates, representing as much as 26 percent of expenditures
for those drugs in 2010. Whereas our original analysis was limited to 20 brand-name
drugs, this current study provides a more thorough examination of the potential
collections associated with Part B rebates, as well as implementation issues.

HOW WE DID THIS STUDY

For each of the 60 Healthcare Common Procedure Coding System codes that represented
85 percent ($13.9 billion) of total 2011 Part B drug expenditures, we calculated how
much manufacturers would have owed in rebates based on average manufacturer prices
(AMP-based rebates) and average sales prices (ASP-based rebates). We reviewed
previous OIG work and documented the methodological challenges we encountered in
this study to identify issues that would need to be addressed before implementing a rebate
program under Medicare Part B.

WHAT WE FOUND

Medicare could have collected $3.1 billion if pharmaceutical manufacturers had been
required in 2011 to pay AMP-based rebates for 60 high-expenditure Part B drugs,
representing 22 percent of spending for those drugs. Requiring manufacturers to pay
ASP-based rebates for the same 60 drugs could have garnered Medicare $2.7 billion in
rebate payments, representing 20 percent of spending. However, several implementation
issues related to claims and data would need to be addressed if such a rebate program
were implemented.

WHAT WE RECOMMEND

We recommend that the Centers for Medicare & Medicaid Services (CMS) examine the
additional potential impacts of establishing a prescription drug rebate program under
Medicare Part B and, if appropriate, seek legislative change. As part of its consideration,
CMS should address administrative issues that may hinder rebate collections. CMS did
not concur with our recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................7 

Findings......................................................................................................13 

           Medicare could have collected at least $2.7 billion in 2011 if 

           manufacturers of Part B drugs had been required to pay rebates 

           similar to those under Medicaid .....................................................13 

           Several implementation issues related to claims and data would 

           need to be addressed if Congress were to establish a 

           comprehensive drug rebate program under Medicare Part B ........14 

Conclusion and Recommendations ............................................................18 

           Agency Comments and Office of Inspector General Response .....19 

Appendix....................................................................................................20 

           A: 	Drug Descriptions ....................................................................20 

           B: 	Estimated 2011 AMP-Based and ASP-Based Part B Rebates 

               for 60 High-Expenditure Drugs ...............................................22 

           C: Agency Comments ...................................................................24 

Acknowledgments......................................................................................26 

                   OBJECTIVES
                   1.	 To calculate the total rebates that could have been collected in 2011 if
                       manufacturers had been required to pay rebates for drugs covered
                       under Medicare Part B.
                   2.	 To identify implementation issues that would need to be addressed if
                       such rebates were required.

                   BACKGROUND
                   The Medicaid Drug Rebate Program was created to reduce State and
                   Federal Medicaid expenditures for prescription drugs. In general, States
                   cover prescription drugs produced by manufacturers that have entered into
                   rebate agreements, and in turn, manufacturers are required to provide
                   rebates on these drugs to the States. Under this program, Federal and
                   State governments recouped $13 billion of the $28 billion spent by
                   Medicaid on prescription drugs in 2011.1 Medicare Part B spent
                   $16.4 billion on prescription drugs that same year. However, unlike
                   Medicaid, Medicare has no requirement for manufacturers to pay rebates,
                   despite the fact that Medicare accounts for a substantial share of the
                   market for the types of drugs covered under Part B.2
                   In 2011, Senator Herb Kohl requested that the Office of Inspector General
                   (OIG) identify the potential savings associated with requiring
                   manufacturers of Medicare Part B drugs to pay rebates similar to those
                   under Medicaid. OIG responded to Senator Kohl in a letter dated
                   October 6, 2011.3 In this response, we estimated that a Part B rebate
                   program could have recouped between 21 and 26 percent of expenditures
                   in 2010 (up to $2.4 billion) for just 20 brand-name drugs. This current
                   study provides a more current and complete picture by encompassing a
                   larger number of drugs, including multiple-brand and generic products;
                   updating rebate calculations based on 2011 data; and discussing possible
                   implementation issues.




                   1
                     Medicaid expenditures were calculated using data from the Centers for Medicare &
                   Medicaid Services’ (CMS) Medicaid Budget and Expenditures System. 

                   2
                     In 2010, Medicare spending accounted for the majority of total U.S. spending for 35 of 

                   the 55 highest-expenditure Part B drugs. See Government Accountability Office (GAO), 

                   Medicare: High-Expenditure Part B Drugs, GAO-13-46R, October 2012. 

                   3
                     Letter from Inspector General Daniel R. Levinson to Senator Herb Kohl, Chairman, 

                   Senate Special Committee on Aging. Accessed at 

                   http://www.aging.senate.gov/HHSOIG.pdf on October 11, 2012. 

Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs            1
(OEI-12-12-00260)
                   Medicare Part B Coverage of Prescription Drugs
                   Although Medicare Part D covers most outpatient prescription drugs,
                   Medicare continues to cover a limited number of drugs and biologicals
                   (hereinafter referred to collectively as drugs) under its Part B benefit.
                   Part B-covered drugs generally fall into the following three categories:
                   drugs furnished incident to a physician’s service (e.g., injectable drugs
                   used in connection with the treatment of cancer); drugs explicitly covered
                   by statute (e.g., some vaccines and oral anticancer drugs); and drugs used
                   in conjunction with durable medical equipment (e.g., inhalation drugs).4
                   Medicare beneficiaries can receive Part B drugs through physician offices;
                   hospital outpatient departments; durable medical equipment (DME)
                   suppliers; and, in certain specific instances, pharmacies.
                   Medicare Part B Payments for Prescription Drugs
                   CMS contracts with private companies to process and pay Medicare
                   Part B claims, including those for prescription drugs. To obtain payment
                   for covered drugs, providers submit claims to their Medicare contractors
                   using Healthcare Common Procedure Coding System (HCPCS) codes.
                   HCPCS codes provide a standardized system for describing specific items
                   and services provided in the delivery of health care. In the case of
                   prescription drugs, each HCPCS code defines the drug’s name and the
                   amount of drug represented by one unit of the HCPCS code but does not
                   specify manufacturer or package size information.
                   Medicare and its beneficiaries spent $16.4 billion for Part B drugs in all
                   settings in 2011.5 Although Part B paid for more than 700 outpatient
                   prescription drug HCPCS codes that year, most spending was concentrated
                   on a relatively small subset, with 72 HCPCS codes accounting for
                   90 percent of total expenditures.
                   Payments in the physician office, supplier, and pharmacy settings.
                   Medicare pays physicians, DME suppliers, and pharmacies for most
                   Part B drugs using a methodology based on average sales prices (ASP).6, 7


                   4
                     42 CFR § 414.900(b) and Medicare Benefit Policy Manual, Pub. No. 100-2, ch. 15,
                   § 50.

                   5
                     This estimate does not include Part B drugs used to treat end-stage renal disease 

                   because Medicare now pays for these drugs using a bundled rate. 

                   6
                     Several Part B drugs, including certain vaccines and blood products, are not paid on the

                   basis of ASPs. Sections 1847A(a)(1) and 1842(o)(1) of the Social Security Act (the Act). 

                   See also Medicare Claims Processing Manual, Pub. No. 100-04, ch. 17, § 20.1.3.

                   7
                     Section 1847A(c) of the Act defines “ASP” as a manufacturer’s sales of a drug (with

                   certain exceptions) to all purchasers in the United States in a quarter divided by the 

                   number of units of the drug sold by the manufacturer in that same quarter. The ASP is

                   net of any price concessions, such as volume discounts, “prompt pay” discounts, cash

                   discounts, free goods contingent on purchase requirements, chargebacks, and rebates 

                   other than those obtained through the Medicaid drug rebate program.

Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs            2
(OEI-12-12-00260)
                   Manufacturers provide CMS with the ASP and volume of sales for their
                   drugs on a quarterly basis, with submissions due 30 days after the close of
                   each quarter.8 Payment amounts for most Part B prescription drugs are
                   equal to 106 percent of the volume-weighted ASPs for the individual
                   drugs represented by the HCPCS code (or the actual charge billed on the
                   claim, if that amount is lower). Medicare beneficiaries are responsible for
                   20 percent of this amount in coinsurance.
                   Payments in the hospital outpatient setting. Medicare also pays hospital
                   outpatient departments for Part B-covered drugs on the basis of ASPs, but
                   only when the drugs are considered “separately payable.” A drug is
                   separately payable when (1) its estimated per-drug, per-day costs are
                   greater than $70 (for 2011), or (2) it has been granted “pass-through”
                   status by CMS, regardless of whether the cost exceeds the $70 per day
                   packaging threshold. 9, 10 In contrast, “packaged drugs” are inexpensive
                   Part B drugs that do not exceed the packaging threshold and are also not
                   pass-through drugs. CMS does not make separate payments for packaged
                   drugs; it includes payment for these drugs as part of the payment for the
                   treatment during which the drugs are administered.
                   Unlike for other Part B drugs, the Act does not define a set payment
                   methodology (e.g., 106 percent of ASP) for certain separately payable
                   drugs administered in a hospital outpatient setting. Rather, through the
                   rulemaking process, CMS annually updates the ASP-based payment
                   methodology for separately payable drugs that are not pass-through drugs.
                   For 2011, CMS set the Medicare payment amount for non-pass-through
                   separately payable drugs at 105 percent of ASP (see Table 1). The
                   payment method for pass-through drugs is the same as the payment
                   method for drugs in physician office settings (i.e., 106 percent of ASP).11




                   8
                     Sections 1847A(f) and 1927(b)(3) of the Act. 

                   9
                     75 Fed. Reg. 71800, 71939 (Nov. 24, 2010). 

                   10
                      Section 1833(t)(6)(A) of the Act provides for temporary additional payments, or

                   “transitional pass-through payments,” for certain drugs, including new drugs and orphan

                   drugs. Section 1833(t)(6)(A)(i) of the Act defines “orphan drugs” as drugs that are used 

                   for a rare disease or condition with respect to which the drug has been designated as an 

                   orphan drug under section 526 of the Federal Food, Drug and Cosmetic Act. 

                   11
                      75 Fed. Reg. 71800, 71932 (Nov. 24, 2010).
Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs             3
(OEI-12-12-00260)
           Table 1: Medicare Part B Payment Methodologies for Covered Drugs

              Drug Type                                                     Medicare Payment Methodology for 2011

             Drugs administered in physicians’ offices
                                                                                                    106 percent of ASP
             or dispensed by suppliers/pharmacies
             Drugs administered in hospital outpatient
                                                                                                    105 percent of ASP
             settings that exceed the $70 threshold
             Drugs administered in hospital outpatient
                                                                                                    106 percent of ASP
             settings that are considered pass-through

             Packaged drugs                                          Not applicable; payment included in related service

           Source: OIG analysis of Medicare payment methodologies (Feb. 13, 2012).




                    Medicaid Payment for Prescription Drugs
                    Medicaid beneficiaries typically receive covered drugs through
                    pharmacies, which are reimbursed by State Medicaid agencies. Federal
                    regulations require, with certain exceptions, that each State Medicaid
                    agency’s reimbursement for a covered outpatient drug not exceed (in the
                    aggregate) the lower of (1) the estimated acquisition cost plus a reasonable
                    dispensing fee or (2) the provider’s usual and customary charge to the
                    public for the drug.12 CMS gives States flexibility to define “estimated
                    acquisition cost”; most States base their calculation on list prices
                    published in national compendia.13, 14 For certain multiple-source drugs
                    (i.e., generic drugs and brand-name drugs for which generic alternatives
                    are available), States also use the Federal upper limit program and/or State
                    maximum allowable cost programs in setting reimbursement amounts.
                    The Medicaid law limits cost-sharing for beneficiaries, and the Medicaid
                    program generally imposes lower cost-sharing requirements for
                    beneficiaries than does Medicare.15
                    Medicaid Drug Rebate Program
                    The Omnibus Budget Reconciliation Act of 1990 created the Medicaid
                    drug rebate program to reduce State and Federal Medicaid expenditures
                    for prescription drugs. For Federal financial participation to be available


                    12
                       42 CFR § 447.512(b). CMS issued a proposed rule in February 2012 that would
                    replace estimated acquisition cost with actual acquisition cost as the basis of Medicaid
                    pharmacy reimbursement. See 77 Fed. Reg. 5318, 5320 (Feb. 2, 2012).
                    13
                       Historically, the majority of States have used average wholesale prices (AWP) or
                    wholesale acquisition costs (WAC) to set reimbursement and had obtained these data
                    from the publisher First DataBank. First DataBank stopped publishing AWPs as of
                    September 2011. AWPs and WACs are derived from manufacturer-reported list prices.
                    14
                       CMS, Medicaid Covered Outpatient Prescription Drug Reimbursement Information by
                    State—Quarter Ending June 2012. Accessed at http://www.medicaid.gov on
                    November 16, 2012.
                    15
                       Sections 1916 and 1916A of the Act.
Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                             4
(OEI-12-12-00260)
                   for covered outpatient drugs provided under Medicaid, manufacturers
                   must enter into rebate agreements with the Secretary of Health and Human
                   Services and pay quarterly rebates to State Medicaid agencies.16 Fifty
                   States and the District of Columbia, as well as approximately
                   600 pharmaceutical companies, participate in the Medicaid drug rebate
                   program.17 From 2005 to 2011, the Medicaid program collected
                   approximately $9.7 billion per year, on average, in prescription drug
                   rebates.
                   Under their rebate agreements and pursuant to section 1927(b)(3) of the
                   Act, manufacturers must provide CMS with the average manufacturer
                   price (AMP) for each of their national drug codes (NDC) on a monthly
                   and quarterly basis.18, 19 In the Medicaid drug rebate program, drugs are
                   generally categorized as one of three types: single-source, innovator
                   multiple-source, or noninnovator multiple-source. In general terms, a
                   single-source drug would typically be a brand-name product with no
                   available generic versions. An innovator multiple-source drug would
                   typically be a brand-name product that has available generic versions. A
                   noninnovator multiple-source drug would be a generic version of any
                   innovator product. Manufacturers provide CMS with the drug category
                   for each of their NDCs in conjunction with AMP data.
                   Manufacturers of single-source and innovator multiple-source drugs must
                   also provide CMS with the “best price” for each NDC.20 Manufacturers of
                   noninnovator multiple-source drugs are not required to provide best prices
                   for those NDCs.
                   Medicaid Drug Rebate Calculation
                   Basic Rebate. For rebate purposes, manufacturers must provide AMP and
                   best-price data to CMS within 30 days of the end of each quarter. CMS
                   uses this information to calculate a unit rebate amount (URA) every
                   quarter for each NDC included in the Medicaid drug rebate program.

                   16
                      Sections 1927(a)(1) and (b)(1) of the Act.
                   17
                      CMS, Medicaid Drug Rebate Program. Accessed at http://www.medicaid.gov/ on
                   November 16, 2012.
                   18
                      Effective October 2010, the Patient Protection and Affordable Care Act revised the
                   definition of “AMP” to be the average price paid to the manufacturer for the drug in the
                   United States by (1) wholesalers for drugs distributed to retail community pharmacies
                   and (2) retail community pharmacies that purchase drugs directly from the manufacturer.
                   19
                      The NDC is an 11-digit code that is divided into three segments identifying (1) the firm
                   that manufactures, distributes, or repackages the drug product; (2) the specific strength,
                   dosage form, and formulation of the product for a particular firm; and (3) the product’s
                   package size.
                   20
                      Section 1927(b)(3)(A)(i)(II) of the Act. “Best price” is defined in 1927(c)(1)(C) of the
                   Act as the lowest price available from the manufacturer during the rebate period to any
                   wholesaler, nonprofit entity, or governmental entity within the United States, with certain
                   exceptions.
Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs              5
(OEI-12-12-00260)
                   Pursuant to section 1927(c) of the Act, the formula used to calculate the
                   URA depends on the drug category reported by the manufacturer. The
                   basic URA for a noninnovator multiple-source drug is 13 percent of the
                   AMP. The basic URA for a single-source or innovator multiple-source
                   drug is the greater of 23.1 percent of the AMP or the difference between
                   the AMP and best price.21 In addition, for drugs approved exclusively for
                   pediatric indications and certain blood-clotting factors, the basic rebate is
                   the greater of 17.1 percent of AMP or the difference between the AMP and
                   the best price.
                   If the AMP for a brand-name drug has risen faster than inflation, the
                   drug’s manufacturer must pay an additional rebate over and above the
                   basic URA.22 Prior OIG work has demonstrated that this aspect of the
                   rebate program helps protect Medicaid from rising drug costs; substantial
                   increases in prices for Medicaid brand-name drugs (about three times the
                   rate of inflation) between 2005 and 2010 were largely offset by rebate
                   payments.23
                   CMS provides the URA (basic and additional) for each NDC to State
                   Medicaid agencies each quarter. Within 60 days after the end of the
                   quarter, State Medicaid agencies must send each manufacturer an invoice
                   with the URA and number of units reimbursed for each NDC. To
                   determine the total rebate due from manufacturers for each NDC, the URA
                   is multiplied by the total number of units of the NDC reimbursed by the
                   State during the quarter. This utilization figure should include all units for
                   which Medicaid paid a portion of the claim, including Part B claims for
                   beneficiaries who are eligible for both Medicare and Medicaid (hereinafter
                   referred to as dual eligibles) for which Medicaid covered any Part B
                   coinsurance or deductible. Manufacturers must pay rebates to States
                   within 30 days of the date on the rebate invoices.
                   The 340B Program and Prohibition of Duplicate Discounts. The Veterans
                   Health Care Act of 1992 established the 340B Program in section 340B of


                   21
                      Section 1927(c) of the Act.
                   22
                      Section 1927(c)(2) of the Act. To determine whether a brand-name drug is subject to
                   the increased rebate amount, CMS compares the reported AMP for a given quarter to its
                   inflation-adjusted baseline AMP. The baseline AMP for a drug is the AMP for the first
                   quarter after the drug’s initial market date. To adjust the baseline AMP for inflation,
                   CMS first divides the baseline AMP by the baseline consumer price index for all urban
                   consumers (consumer price index), which is the consumer price index for the first month
                   prior to the first quarter after the drug’s initial market date. The result of that calculation
                   is then multiplied by the quarterly consumer price index, which is the consumer price
                   index for the month prior to the quarter being calculated. If the reported AMP is greater
                   than the inflation-adjusted baseline AMP, then the difference is added to the URA.
                   23
                      OIG, Medicaid Brand-Name Drugs: Rising Prices Are Offset by Manufacturer
                   Rebates, OEI-03-10-00260, August 2011.
Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                   6
(OEI-12-12-00260)
                   the Public Health Service Act. The 340B Program requires drug
                   manufacturers to provide discounted outpatient drugs to certain eligible
                   health care entities, known as covered entities.24 Covered entities serve
                   the underinsured or uninsured and include disproportionate share
                   hospitals25, family planning clinics, and federally qualified health centers,
                   among others. As of January 2013, approximately 20,451 entities were
                   participating in the 340B Program.
                   In general, State Medicaid agencies are responsible for ensuring that
                   manufacturers do not provide “duplicate discounts” for drugs purchased
                   under the 340B program. Manufacturers provide duplicate discounts
                   when they pay Medicaid rebates to States for drugs sold at discounted
                   prices through the 340B Program. Duplicate discounts are prohibited by
                   law.26 To prevent subjecting drug manufacturers to duplicate discounts
                   when claiming Medicaid rebates, States need to exclude claims for drugs
                   purchased under the 340B program (340B claims) from the utilization data
                   that they send to manufacturers.

                   METHODOLOGY
                   Data Collection
                   Total Part B Expenditures and Utilization. We obtained all paid claims
                   (i.e., physician claims, DME claims, and hospital outpatient claims) for
                   Part B drug HCPCS codes from the 2011 National Claims History (NCH)
                   file to determine quarterly utilization and spending.27
                   NDCs. We obtained from CMS the 2011 quarterly “crosswalk” files that
                   link HCPCS codes to the related NDCs included in the ASP calculation,
                   including a determination of how many units of a given NDC are
                   represented by the HCPCS code.28
                   Medicaid Rebate Amounts. We obtained from CMS the Medicaid URAs
                   for all NDCs associated with the relevant HCPCS codes in each quarter of
                   2011.


                   24
                      Covered entities do not necessarily purchase all of their drugs at 340B prices. 

                   25
                      A disproportionate share hospital is a hospital with a disproportionately large share of

                   low-income patients. CMS, Medicare Disproportionate Share Hospital, ICN 006741. 

                   January 2013. 

                   26
                      42 U.S.C. § 256b(a)(5)(A). 

                   27
                      Claims are added to NCH files on a rolling basis. Therefore, the 2011 NCH files did 

                   not include 100 percent of claims when OIG analyzed the files in May 2012. 

                   28
                      Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS 

                   codes rather than on NDCs and more than one NDC may meet the definition of a 

                   particular HCPCS code, CMS has developed a file that “crosswalks” manufacturers’

                   NDCs to HCPCS codes. CMS uses information in this crosswalk file to calculate 

                   volume-weighted ASPs for covered HCPCS codes.

Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                7
(OEI-12-12-00260)
                   ASP Data. We obtained from CMS the quarterly ASPs and number of
                   units sold as reported by manufacturers for all NDCs associated with the
                   relevant HCPCS codes in each quarter of 2011.
                   Dual-Eligible Data. We obtained the 2011 beneficiary enrollment
                   database from CMS, which includes a variable noting whether a
                   beneficiary is enrolled in both Medicare and Medicaid.
                   340B Data. We obtained the database of 340B-covered entities from the
                   Health Resources and Services Administration (HRSA) on June 7, 2012,
                   to identify providers eligible for 340B pricing.
                   Previous OIG Work. We reviewed prior OIG work on the Medicaid rebate
                   program to identify issues that would affect the implementation of a
                   similar rebate program in Medicare Part B.
                   Data Analysis
                   Selection of Drugs. Using data from the NCH file, we summarized
                   Medicare expenditures and utilization by HCPCS code for all Part B drugs
                   in all settings in 2011. We selected the 72 HCPCS codes with the highest
                   total expenditures (constituting 90 percent of Medicare Part B total
                   spending) for review.
                   We removed 3 of the 72 HCPCS codes from our analysis because the
                   codes represented Not Otherwise Classified (NOC) drugs, meaning that
                   the drugs being billed could not be readily identified. We also removed
                   five additional HCPCS codes because they were not paid on the basis of
                   ASPs in 2011.29 We then removed four additional HCPCS codes from our
                   analysis because they did not meet the definition of a covered outpatient
                   drug under Medicaid and manufacturers were therefore not subject to
                   rebate agreements requiring them to report AMP or ASP data.30 We then
                   used CMS’s ASP files to identify all NDCs that are crosswalked to the
                   remaining 60 HCPCS codes. These 60 codes accounted for 85 percent
                   ($13.9 billion) of Part B drug expenditures in 2011 (see Table 2).




                   29
                      Four of the five HCPCS codes represented vaccines—drugs for which manufacturers
                   are not required to submit ASP data to CMS. The fifth code represented a newly
                   approved drug that was not included in CMS’s ASP pricing file in 2011, but was paid on
                   the basis of ASPs in 2012.
                   30
                      Three HCPCS codes represent hyaluronan (Synvisc or Synvisc-One, Hyalgan or
                   Supartz, and Orthovisc) and the fourth represents Apligraf skin substitute. All of these
                   products are considered “devices” and not drugs by Medicaid and the U.S. Food and
                   Drug Administration (FDA).
Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs            8
(OEI-12-12-00260)
                   Table 2: Summary of Part B Drug HCPCS Codes Included in Analysis

                                                                                  2011 Part B
                     Number of HCPCS Codes                                                        Percentage of Total
                                                                                    Spending

                     712 (All Part B HCPCS codes)                                 $16.4 billion                100%

                     72 (Codes with the highest Part B expenditures)              $14.8 billion                 90%

                     69 (After 3 NOC codes removed)                               $14.4 billion                 88%

                     64 (After 4 vaccines and 1 newly approved drug
                                                                                  $14.2 billion                 87%
                     removed)

                     60 (After 4 devices removed)                                 $13.9 billion                 85%

                   Source: OIG analysis of 2011 NCH file (Feb. 13, 2012).

                   Categorization of Drugs. Using CMS’s fourth-quarter ASP file, we
                   categorized the 60 HCPCS codes as representing a single-brand drug,
                   multiple-brand drug, or generic drug (see Appendix A for a list of the
                   60 HCPCS codes and their respective categorizations). A single-brand
                   HCPCS code represents only one brand-name drug (and no generics)
                   produced by a single manufacturer. We classified 48 of the 60 HCPCS
                   codes as single brand. A multiple-brand HCPCS code represents two or
                   more brand-name drugs produced by more than one manufacturer. We
                   classified 5 of the 60 HCPCS codes as multiple brand. A generic HCPCS
                   code represents either a combination of brand-name and generic drugs or
                   of generic drugs only. Generic drugs are also produced by more than one
                   manufacturer. We classified 7 of the 60 HCPCS codes as generic.31
                   Calculation of AMP-Based Rebate Amounts. We calculated a rebate
                   amount for each NDC within a HCPCS code using the Medicaid URAs
                   (which include basic and additional rebates) reported for the associated
                   NDCs in each quarter of 2011. AMPs (and URAs) are calculated for the
                   lowest identifiable quantity of the drug contained in that NDC (e.g.,
                   1 milliliter, one tablet). In contrast, Part B payment amounts and
                   utilization are reported by HCPCS code for the entire amount of the drug
                   contained in the NDC (e.g., 50 milliliters, 100 tablets). To ensure that the
                   rebate amount is representative of the correct number of units for the
                   HCPCS code, we used CMS’s crosswalk file to convert the URA of each
                   NDC so that it would represent the amount of the drug specified by the
                   HCPCS code.
                   Determination of ASP-Based Rebate Amounts. Because Part B payments
                   for most covered drugs are based on ASPs, we also calculated an

                   31
                      Two of the generic HCPCS codes represented brand-name drugs of which generic
                   versions become available at some point in 2011.
Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                     9
(OEI-12-12-00260)
                   estimated rebate based on those amounts in each quarter of 2011. We first
                   calculated a basic URA for each crosswalked NDC by substituting ASP for
                   AMP in the rebate formula (i.e., for single-source and innovator multiple-
                   source drugs, the greater of 23.1 percent of ASP or the difference between
                   ASP and best price; for noninnovator multiple-source drugs, 13 percent of
                   ASP; and for drugs approved exclusively for pediatric indications and
                   certain blood-clotting factors, the greater of 17.1 percent of ASP or the
                   difference between ASP and best price). For brand-name drugs, we then
                   calculated the additional inflation-based rebate using the same method that
                   CMS uses to calculate the additional rebate for Medicaid drugs (i.e., using
                   the base-date ASP to track changes in ASPs against inflation).32 We then
                   added the basic rebate amount to any additional inflation-based rebate
                   amount to calculate the ASP-based URA for each NDC.
                   Removing Claims for Which Manufacturers Would Not Owe Rebates.
                   Before calculating the total potential Part B rebate amounts, we removed
                   Part B claims for dual-eligible beneficiaries from our analysis because
                   those claims should have already been subject to Medicaid rebates. We
                   identified all Part B drug claims for dual eligibles by matching the Part B
                   drug claims against the beneficiary enrollment file.
                   We also removed 340B claims from our analysis because duplicate
                   discounts are prohibited by law. 33 Using HRSA’s file of 340B-covered
                   entities from June 7, 2012, we identified and removed any Part B drug
                   claims submitted by covered entities. We then summarized the utilization
                   for the remaining claims to determine the total units of each HCPCS code
                   that would have been subject to rebates in 2011.
                   Claims associated with dual eligibles or with 340B-covered entities
                   represented 29 percent of expenditures and 36 percent of utilization for the
                   60 HCPCS codes included in our review. In other words, $4 billion of the
                   $13.9 billion spent on these 60 HCPCS codes in 2011 would not have
                   been subject to rebates, and any associated claims were therefore removed
                   from our rebate calculations.34
                   Total Rebate Calculations. After removing dual-eligible and 340B claims,
                   we apportioned the remaining utilization among the individual NDCs
                   within each HCPCS code. Because NDC-level utilization is not tracked
                   under Part B, we used CMS’s ASP files to determine the percentage of
                   total sales of a HCPCS code represented by each NDC (i.e., one NDC

                   32
                      We defined “base-date ASP” as the drug’s ASP in the first reported quarter or, for 

                   older drugs, the drug’s ASP when the ASP-based payment went into effect in 2005.

                   33
                      42 U.S.C. § 256b(a)(5)(A). 

                   34
                      Among the individual HCPCS codes, between 10 percent and 77 percent of spending

                   and between 10 percent and 96 percent of utilization was removed from our analysis.

Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs               10
(OEI-12-12-00260)
                   represented 10 percent of total sales, and another NDC represented
                   15 percent). We then multiplied these percentages by the total quarterly
                   utilization of each HCPCS code to estimate utilization for each NDC.35 To
                   determine total rebate amounts, we multiplied the estimated utilization of
                   each NDC by its AMP-based and ASP-based rebate amounts and
                   summarized the NDC-level figures by HCPCS code (see Appendix B for
                   total rebate calculations). Rebate calculations are based on historical
                   pricing and utilization data. These calculations do not attempt to account
                   for potential changes in pricing or utilization that might result from
                   implementation of a rebate requirement.
                   Implementation Issues Related to Calculating and Collecting Rebates for
                   Part B. We reviewed previous OIG work involving Medicaid rebates,
                   manufacturer-reported AMP and ASP data, and the 340B Program to
                   identify potential issues that would need to be addressed before
                   implementing a Part B rebate program. We also reviewed issues that we
                   encountered during the analysis of this study, such as identifying claims
                   for drugs purchased at 340B prices and obtaining information to calculate
                   drug rebates.
                   Limitations
                   We did not review Part B claims for accuracy. We also did not review
                   manufacturer-reported drug data or the CMS crosswalk files for accuracy.
                   Because there is no identifier in the NCH claims data indicating that a
                   drug was purchased at 340B prices, we removed all claims submitted by
                   340B-covered entities from our analysis. We identified these entities
                   using HRSA’s database of covered entities, which prior OIG work has
                   found to contain inaccuracies.36, 37 Given the problems with this database
                   and issues with identifying 340B drugs in NCH claims data, we may have
                   inadvertently removed claims for drugs not purchased at 340B prices,
                   possibly resulting in underestimating potential collections associated with
                   a Part B rebate program.
                   Furthermore, our rebate estimates apply only to the 60 drugs in our sample
                   that represent 85 percent of expenditures; the estimates cannot be

                   35
                      We determined that the number of units listed in the 2011 NCH file for two HCPCS
                   codes (representing factor viii recombinant and factor viia, which are used to treat
                   hemophilia) underrepresented the actual number of HCPCS units reimbursed by a
                   substantial margin. We calculated the correct number of Medicare units by dividing the
                   total Part B spending (after removing dual-eligible and 340B claims) by the Part B
                   payment amount in each quarter.
                   36
                      OIG, Deficiencies in the 340B Drug Discount Program’s Database, OEI-05-02-00071,
                   June 2004. 

                   37
                      OIG, State Medicaid Policies and Oversight Activities Related to 340B-Purchased 

                   Drugs, OEI-05-09-00321, June 2011. 



Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs         11
(OEI-12-12-00260)
                   generalized to all drug HCPCS codes paid under Part B. Our analysis did
                   not address how implementation of Part B rebates could affect beneficiary
                   cost-sharing, i.e., potential fluctuations in drug pricing and resulting copay
                   obligations or the possibility that any of the potential rebate collections
                   could be passed on to beneficiaries. Our analysis also did not examine the
                   impact that the implementation of a Part B rebate program could have on
                   provider acquisition costs, beneficiary access to useful therapies, and
                   Medicare drug prices; on prices for uninsured patients and for other
                   payers; on the pharmaceutical market in general; on supplemental
                   insurance premiums; or on the administrative costs of establishing and
                   operating a rebate program.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs   12
(OEI-12-12-00260)
                   FINDINGS
                   Medicare could have collected at least $2.7 billion in
                   2011 if manufacturers of Part B drugs had been
                   required to pay rebates similar to those under
                   Medicaid
                   Medicare and its beneficiaries spent $13.9 billion in 2011 for the
                   60 selected high-expenditure Part B drugs. If Medicare had applied an
                   AMP-based methodology, it could have collected $3.1 billion in rebates
                   from pharmaceutical manufacturers for the 60 drugs that year, which
                   represents 22 percent of expenditures on those drugs. If Medicare had
                   applied an ASP-based methodology, it could have collected $2.7 billion in
                   rebates from pharmaceutical manufacturers, which represents 20 percent
                   of expenditures on those drugs.
                   If Medicare had used an AMP-based methodology for rebates,
                   the program could have potentially recouped 22 percent of
                   expenditures for the 60 drugs under review
                   Under an AMP-based rebate program (i.e., using the same rebate
                   benchmark as Medicaid), manufacturers would potentially have owed
                   $3.1 billion in rebates for the 60 drugs included in this review. As a result,
                   Medicare could have recouped 22 percent of the $13.9 billion in
                   expenditures for these drugs. AMP-based rebates for just 10 of the 60
                   HCPCS codes accounted for 55 percent of the total projected rebate
                   amounts. As shown in Table 3, most of the total projected rebate amounts
                   were attributable to the 48 single-brand HCPCS codes, which represented
                   $2.6 billion of the total rebates (and $11.8 billion of total expenditures).
                   If Medicare had used an ASP-based methodology for rebates,
                   the program could have potentially recouped 20 percent of
                   expenditures for the 60 drugs under review
                   Under an ASP-based rebate program, manufacturers would have
                   potentially owed $2.7 billion in rebates for the 60 drugs included in this
                   review. As a result, Medicare could have recouped 20 percent of the
                   $13.9 billion in expenditures for these drugs. ASP-based rebates for just
                   10 of the 60 HCPCS codes accounted for 57 percent of total projected
                   rebate amounts. Once again, most of the total projected rebate amounts
                   were attributable to single-brand HCPCS codes, which represented $2.4
                   billion of the total rebates.




Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs   13
(OEI-12-12-00260)
                   Table 3: Potential Rebates Associated With Each Drug Type

                     HCPCS Classification                   AMP-Based Rebates                  ASP-Based Rebates

                     Single-Brand (n=48)                           $2,648,759,293                    $2,353,138,619

                     Multiple-Brand (n=5)                            $159,580,380                      $144,661,408

                     Generic (n=7)                                   $273,240,243                      $237,125,619

                     TOTAL                                         $3,081,579,916                    $2,734,925,646

                   Source: OIG analysis of CMS’s 2011 AMP and ASP files and the 2011 NCH file (Nov. 20, 2012).

                   Several implementation issues related to claims and
                   data would need to be addressed if Congress were to
                   establish a comprehensive drug rebate program for
                   Medicare Part B
                   The lack of NDC-level information on Part B claims, issues involving
                   manufacturer-reporting of drug data, and difficulties in identifying drugs
                   purchased under the 340B Program would all affect CMS’s ability to
                   calculate accurate rebates and invoice the appropriate manufacturers for
                   drug claims. OIG has identified many of these issues in prior reports and
                   has made relevant recommendations.
                   The use of HCPCS codes for Part B drugs would present
                   challenges when identifying the manufacturer responsible for
                   rebates
                   The use of HCPCS codes rather than NDCs to bill for Part B drugs would
                   need to be addressed before Medicare could effectively collect rebates for
                   multiple-brand and generic drugs. For 12 of the 60 HCPCS codes under
                   review, CMS’s crosswalk file lists NDCs from more than 1 manufacturer
                   and multiple manufacturers reported sales during the quarters under
                   review. Therefore, without an NDC on the claim, CMS would not be able
                   to determine the appropriate manufacturer to invoice.
                   For many years, Medicaid faced a similar problem in collecting rebates for
                   physician-administered drugs, i.e., the principal type of drug also covered
                   under Medicare Part B. In 2004, OIG reported that only 17 States
                   collected Medicaid rebates from manufacturers for physician-administered
                   drugs in 2001.38 At that time, many States did not have a system to
                   identify the manufacturer responsible for paying the rebates for these
                   drugs, as most were using HCPCS codes rather than NDCs for physician-
                   administered drug claims.


                   38
                    OIG, Medicaid Rebates for Physician-Administered Drugs, OEI-03-02-00660,
                   April 2004.
Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                        14
(OEI-12-12-00260)
                   Following the release of that OIG report, the Deficit Reduction Act of
                   2005 (DRA) specifically required States to collect rebates for certain
                   physician-administered drugs for Federal financial participation to be
                   available.39 To assist States in meeting this requirement, the DRA also
                   mandated that claims for certain physician-administered drugs include the
                   NDC for the drug being billed. In a followup report released in 2011, OIG
                   found that as of June 30, 2009, all States but one reported collecting at
                   least a portion of the rebates owed for physician-administered drugs, and
                   86 percent of States reported that they required NDCs on all
                   physician-administered drug claims.40
                   Even if providers billed Medicare with NDCs, information
                   needed to calculate and collect Part B rebates may be
                   unavailable or inaccurate
                   Only manufacturers with Medicaid drug rebate agreements in effect are
                   required to report ASPs and AMPs, among other drug information, to
                   CMS.41 However, manufacturers of certain Part B drugs may not have
                   Medicaid drug rebate agreements in effect. For example, four
                   high-expenditure Part B HCPCS codes were associated with products that
                   FDA and Medicaid classified as devices (rather than drugs). For that
                   reason, the manufacturers are not required to pay Medicaid drug rebates,
                   and they did not report any AMP data to CMS for the products.42
                   A previous OIG study found that for certain Part B HCPCS codes, none of
                   the associated drugs were manufactured by companies with Medicaid drug
                   rebate agreements.43 Therefore, if these manufacturers chose not to report
                   ASPs or AMPs, the missing pricing data would prevent Medicare from
                   calculating and collecting rebates for the relevant drugs. This barrier to a
                   Part B drug rebate program would be addressed if CMS were to require all
                   manufacturers of Part B drugs to report pricing data as OIG has
                   recommended in the past.
                   Furthermore, even if providers were required to report both NDCs and
                   HCPCS codes on physician-administered drug claims, the information
                   may be inaccurate. In our June 2011 report on physician-administered
                   drugs, OIG found that Medicaid providers incorrectly convert HCPCS


                   39
                      Section 1927(a)(7) of the Act, as added by section 6002 of the DRA.
                   40
                      OIG, States’ Collection of Medicaid Rebates for Physician-Administered Drugs,

                   OEI-03-09-00410, June 2011. 

                   41
                      Section 1927 of the Act. 

                   42
                      Although they were not required to do so, the manufacturers reported ASP data to 

                   CMS for their products.

                   43
                      OIG, Average Sales Prices: Manufacturer Reporting and CMS Oversight, 

                   OEI-03-08-00480, February 2010. 

Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs             15
(OEI-12-12-00260)
                   code units to NDC units on claims and that providers list NDCs that do not
                   correspond to the same drug as the HCPCS code.44 Because
                   manufacturers are invoiced for rebates on the basis of the number of units
                   billed, inaccurate conversions and incorrect codes may cause States to
                   request substantially more or less than they are actually owed.
                   HCPCS/NDC coding and conversion issues were cited by many States as
                   a primary cause of manufacturer rebate disputes.
                   Drugs purchased at 340B prices have proven challenging to
                   identify
                   If a Part B rebate program were implemented, Medicare would be
                   responsible for ensuring that manufacturers do not provide duplicate
                   discounts for drugs purchased under the 340B Program. Like Medicaid,
                   Medicare would need to exclude claims for drugs purchased at
                   340B prices from the utilization data sent to drug manufacturers when
                   collecting rebates. However, OIG has found that it is challenging for
                   States to prevent duplicate discounts in Medicaid because they cannot
                   identify 340B claims with current billing and claims policies. A 2011 OIG
                   study found that 31 States did not have an edit (i.e., a computerized system
                   process) to identify physician-administered drug claims submitted by
                   covered entities and/or did not require NDCs on 340B claims for
                   physician-administered drugs.45
                   Another OIG study found that 38 percent of sampled entities were
                   incorrectly listed in the covered-entity database as participating in the
                   340B Program.46 Because of potential inaccuracies, 30 States have
                   established alternative files or processes to prevent duplicate discounts.47
                   For example, nine of these States instruct covered entities to use the
                   National Council for Prescription Drug Plan (NCPDP) Telecommunication
                   Standard, an electronic standard used in pharmacies’ prescription drug
                   transactions, to identify 340B claims. Issues with 340B claims are another
                   frequent source of rebate disputes in Medicaid.
                   Problems with identifying drugs purchased at 340B prices could affect the
                   accuracy of Part B rebates. For example, to be conservative in Part B
                   rebate calculations, CMS could elect to exclude all claims submitted by
                   covered entities because drugs that were purchased at 340B prices cannot


                   44
                      OIG, States’ Collection of Medicaid Rebates for Physician-Administered Drugs,

                   OEI-03-09-00410, June 2011. 

                   45
                      Ibid. 

                   46
                      OIG, Deficiencies in the 340B Drug Discount Program’s Database, OEI-05-02-00071, 

                   June 2004. 

                   47
                      OIG, State Medicaid Policies and Oversight Activities Related to 340B-Purchased 

                   Drugs, OEI-05-09-00321, June 2011. 

Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs       16
(OEI-12-12-00260)
                   be identified. This might result in unnecessarily excluding claims for
                   drugs not purchased at 340B prices. In this case, Medicare would not
                   collect the full amount manufacturers owe in rebates. On the other hand,
                   if CMS could not identify claims submitted by covered entities, Medicare
                   could exclude too few claims, and manufacturers would be billed in excess
                   of the amounts owed in rebates.




Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs   17
(OEI-12-12-00260)
                   CONCLUSION AND RECOMMENDATIONS
                   The results of this current study build upon our original 2011 work and
                   help inform analysis of the potential impact of a Part B rebate program.
                   Our findings show that a Part B rebate program similar to the Medicaid
                   rebate program could have yielded Medicare as much as $3.1 billion in
                   rebates (representing 22 percent of spending) for 60 high-expenditure
                   outpatient prescription drugs in 2011.
                   Therefore, we recommend that CMS:
                   Examine the additional potential impacts of establishing a
                   prescription drug rebate program under Medicare Part B and,
                   if appropriate, seek legislative change
                   In evaluating the potential impact of establishing a prescription drug
                   rebate program under Medicare Part B, CMS should take into account
                   numerous factors that could influence drug pricing and utilization that
                   would alter the expected rebate collections and net impact thereof. Such
                   analysis should consider how a rebate program might affect drug prices in
                   Medicare and other markets, beneficiary access to useful therapies,
                   beneficiary cost-sharing, provider acquisition costs, and administrative
                   costs.
                   As part of its consideration of a Medicare Part B prescription
                   drug rebate program, address administrative issues that may
                   hinder rebate collections in Part B
                   Any consideration of a Part B rebate program must address the data- and
                   claims-related issues described in our findings. Many of the issues that
                   impede rebate collection are similar to ones previously faced by Medicaid
                   when collecting rebates for physician-administered drugs, and OIG
                   recommendations have helped reduce (if not eliminate) existing problems.
                   The following measures could help facilitate implementation of a
                   Medicare Part B prescription drug rebate program:
                   Require providers to include NDCs on Part B claims.
                   Medicare would be able to effectively collect rebates for multiple-brand
                   and generic Part B drugs only if NDCs were included on claims. Prior to
                   the implementation of new NDC-related requirements mandated by the
                   DRA, most State Medicaid programs also had major issues collecting
                   rebates for physician-administered drugs as claims for these products
                   typically included only HCPCS codes. However, because the DRA
                   requires providers to include NDCs on certain physician-administered




Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs   18
(OEI-12-12-00260)
                   drug claims, all States but one now collect Medicaid rebates for
                   physician-administered drugs.48
                   Require all manufacturers of Part B drugs to submit ASPs for their
                   products.
                   Pricing information for some Part B drugs may be unavailable because the
                   manufacturers of those drugs do not have Medicaid drug rebate
                   agreements in effect and are therefore not required to report ASPs and
                   AMPs for their drugs. Without this pricing data, CMS would be unable to
                   calculate and collect rebates for these drugs.
                   Make claims for drugs purchased under the 340B Program readily
                   identifiable.
                   To prevent duplicate discounts for drugs purchased under the 340B Drug
                   Pricing Program and to ensure the accuracy of Part B rebates, CMS should
                   modify claims submission requirements for covered entities. If drugs
                   purchased under the 340B Drug Pricing Program are unidentifiable, CMS
                   could incorrectly include or exclude these drugs when invoicing
                   manufacturers. Among other options, CMS could address this issue by
                   requiring covered entities to use the NCPDP Telecommunication Standard
                   to identify 340B claims.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS stated that although it
                   appreciates our analysis of a potential Part B rebate program, a legislative
                   change would be necessary to establish a Part B rebate program and that
                   the annual President’s Budget does not include such a proposal. In
                   addition, CMS stated that a comprehensive examination of the impact of a
                   Part B rebate program would require significant resources. CMS stated
                   that given current priorities, it is unable to devote these resources for a
                   proposal that neither is a provision of current law nor is actively under
                   consideration. OIG recognizes the challenges of assessing a rebate
                   program. However, because of the potential to collect billions of dollars,
                   we believe that a rebate program warrants further deliberation.




                   48
                      OIG, States’ Collection of Medicaid Rebates for Physician-Administered Drugs,
                   OEI-03-09-00410, June 2011.
Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs        19
(OEI-12-12-00260)
                   APPENDIX A
                   Drug Descriptions
                                                                                   HCPCS               HCPCS
                   HCPCS Code                                Description
                                                                                   Dosage        Classification
                   J0129                              Abatacept injection           10 mg         Single-Brand
                   J0152                              Adenosine injection            30 mg        Single-Brand
                   J0256                     Alpha 1 proteinase inhibitor            10 mg       Multiple-Brand
                   J0583                                       Bivalirudin            1 mg        Single-Brand
                   J0585                           Botulinum toxin type a             1 unit      Single-Brand
                   J0878                            Daptomycin injection              1 mg        Single-Brand
                   J0881                                 Darbepoetin alfa            1 mcg        Single-Brand
                   J0885                                      Epoetin alfa       1000 units      Multiple-Brand
                   J0894                              Decitabine injection            1 mg        Single-Brand
                   J1300                            Eculizumab injection             10 mg        Single-Brand
                   J1440                              Filgrastim injection         300 mcg        Single-Brand
                   J1441                            Filgrastim injection           480 mcg        Single-Brand
                                              Immune globulin (privigen)
                   J1459                                                            500 mg        Single-Brand
                                                               injection
                   J1559                             Hizentra injection             100 mg        Single-Brand
                   J1561                              Gamunex injection             500 mg        Single-Brand
                   J1566                        Immune globulin powder              500 mg       Multiple-Brand
                   J1569                     Gammagard liquid injection             500 mg        Single-Brand
                   J1572                           Flebogamma injection             500 mg        Single-Brand
                   J1745                               Infliximab injection          10 mg        Single-Brand
                   J2260                       Milrinone lactate injection            5 mg             Generic
                   J2323                           Natalizumab injection              1 mg        Single-Brand
                   J2353                       Octreotide depot injection             1 mg        Single-Brand
                   J2357                          Omalizumab injection                5 mg        Single-Brand
                                             Palonosetron hydrochloride
                   J2469                                                            25 mcg        Single-Brand
                                                                injection
                   J2505                          Pegfilgrastim injection             6 mg        Single-Brand
                   J2778                           Ranibizumab injection            0.1 mg        Single-Brand
                   J2785                          Regadenoson injection             0.1 mg        Single-Brand
                   J2796                            Romiplostim injection           10 mcg        Single-Brand
                   J3262                            Tocilizumab injection             1 mg        Single-Brand
                   J3285                             Treprostinil injection           1 mg        Single-Brand
                   J3487                                  Zoledronic acid             1 mg        Single-Brand
                   J3488                                 Reclast injection            1 mg        Single-Brand
                   J7189                                       Factor viia           1 mcg        Single-Brand
                   J7192                          Factor viii recombinant              1 IU      Multiple-Brand
                   J7507                                  Tacrolimus oral              1mg             Generic
                   J7517                      Mycophenolate mofetil oral            250 mg             Generic
                   J7518                               Mycophenolic acid            180 mg        Single-Brand
                   J7520                                    Sirolimus oral            1 mg        Single-Brand
                   J7605                 Arformoterol inhalation solution           15 mcg        Single-Brand
                                         Formoterol fumarate inhalation
                   J7606                                                            20 mcg        Single-Brand
                                                                 solution
                                               Albuterol and ipratropium
                   J7620                                                      2.5 mg/0.5 mg            Generic
                                                                bromide
                   J7626                 Budesonide inhalation solution       Up to 0.50 mg            Generic
                   J7686                   Treprostinil inhalation solution        1.74 mg        Single-Brand


Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                20
(OEI-12-12-00260)
                                                                                             HCPCS                  HCPCS
                   HCPCS Code                                      Description
                                                                                             Dosage           Classification
                                                   Doxorubicin hydrochloride
                   J9001                                                                        10 mg          Single-Brand
                                                                    injection
                   J9025                                Azacitidine injection                    1 mg          Single-Brand
                   J9033                              Bendamustine injection                     1 mg          Single-Brand
                   J9035                               Bevacizumab injection                    10 mg          Single-Brand
                   J9041                                  Bortezomib injection                 0.1 mg          Single-Brand
                   J9055                                  Cetuximab injection                   10 mg          Single-Brand
                   J9171                                 Docetaxel injection                     1 mg               Generic
                                                 Gemcitabine hydrochloride
                   J9201                                                                      200 mg                Generic
                                                                    injection
                   J9217                      Leuprolide acetate suspension                    7.5 mg         Multiple-Brand
                   J9263                                             Oxaliplatin               0.5 mg          Single-Brand
                   J9264                             Paclitaxel protein bound                    1 mg          Single-Brand
                   J9303                               Panitumumab injection                    10 mg          Single-Brand
                   J9305                                 Pemetrexed injection                   10 mg          Single-Brand
                   J9310                                   Rituximab injection                100 mg           Single-Brand
                   J9355                                Trastuzumab injection                   10 mg          Single-Brand
                   J9395                                  Fulvestrant injection                 25 mg          Single-Brand
                   Q4074                           Iloprost inhalation solution        Up to 20 mcg            Single-Brand

                   Source: OIG analysis of the CMS average sales price file for the fourth quarter of 2011.




Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                             21
(OEI-12-12-00260)
                   APPENDIX B
                   Estimated 2011 AMP-Based and ASP-Based Part B Rebates for
                   60 High-Expenditure Drugs

                                                              2011       Percentage              2011       Percentage
                                 Total 2011 Part B
           HCPCS Code                                    AMP-Based         of Part B        ASP-Based         of Part B
                                    Expenditures
                                                           Rebates        Spending            Rebates        Spending


           J0129                     $242,621,080        $45,296,356             19%       $43,779,195            18%
           J0152                       $39,187,453        $3,263,977              8%        $5,472,800            14%
           J0256                       $38,814,546        $4,736,155             12%        $4,699,193            12%
           J0583                       $55,106,985       $19,129,757             35%       $26,903,046            49%
           J0585                     $136,604,360        $21,421,964             16%       $10,740,628              8%
           J0878                       $48,882,977       $17,725,069             36%       $17,601,790            36%
           J0881                     $383,226,086        $72,213,146             19%       $68,910,997            18%
           J0885                     $315,462,628        $59,300,246             19%       $59,477,785            19%
           J0894                     $115,821,603        $29,031,868             25%       $24,664,456            21%
           J1300                       $56,786,248        $6,791,565             12%        $6,791,570            12%
           J1440                       $49,660,422       $16,744,905             34%       $13,522,406            27%
           J1441                     $102,526,925        $37,565,814             37%       $31,102,949            30%
           J1459                     $105,355,271        $12,893,068             12%       $12,622,376            12%
           J1559                       $89,229,433        $8,026,938              9%        $7,867,661              9%
           J1561                     $152,594,293        $19,301,268             13%       $18,757,028            12%
           J1566                       $54,839,875       $17,580,557             32%       $14,804,736            27%
           J1569                     $183,952,086        $45,185,976             25%       $42,602,018            23%
           J1572                       $73,565,788        $9,862,168             13%        $9,280,857            13%
           J1745                     $884,009,825       $155,456,677             18%      $144,971,468            16%
           J2260                       $77,197,786        $1,091,377              1%             $637,550           1%
           J2323                     $164,272,185        $42,947,863             26%       $41,798,801            25%
           J2353                     $218,148,095        $89,026,417             41%       $60,291,334            28%
           J2357                     $116,626,156        $23,912,385             21%       $23,295,927            20%
           J2469                     $184,722,551        $32,873,614             18%       $33,685,830            18%
           J2505                     $905,463,334       $151,635,833             17%      $163,101,441            18%
           J2778                    $1,378,203,139      $270,198,840             20%      $268,932,149            20%
           J2785                     $194,402,526        $28,154,653             14%       $26,689,641            14%
           J2796                       $72,036,293       $13,341,727             19%       $12,325,109            17%
           J3262                       $47,296,258        $7,578,172             16%        $7,482,382            16%
           J3285                     $137,058,446        $39,577,422             29%       $20,624,506            15%
           J3487                     $271,797,552        $44,719,164             16%       $44,376,478            16%
           J3488                     $211,617,887        $31,604,846             15%       $31,207,799            15%
           J7189                     $116,085,003         $8,129,573              7%        $8,091,974              7%
           J7192                     $158,214,783         $8,347,292              5%        $8,173,610              5%
           J7507                     $216,943,580        $25,408,192             12%       $16,802,379              8%
           J7517                       $76,360,922       $25,710,172             34%       $20,442,909            27%
           J7518                       $87,389,642       $28,006,887             32%       $22,674,893            26%
           J7520                       $47,168,605       $13,322,350             28%       $12,606,792            27%
           J7605                       $88,787,349       $40,268,808             45%       $17,797,374            20%


Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                      22
(OEI-12-12-00260)
                                                                      2011           Percentage                2011         Percentage
                                     Total 2011 Part B
           HCPCS Code                                            AMP-Based             of Part B          ASP-Based           of Part B
                                        Expenditures
                                                                   Rebates            Spending              Rebates          Spending


           J7606                           $45,028,692           $26,030,126                 58%          $11,092,184                  25%
           J7620                           $42,317,828             $7,878,310                19%          $15,954,183                  38%
           J7626                          $188,089,307           $32,743,303                 17%          $31,186,158                  17%
           J7686                           $85,265,114           $15,011,054                 18%          $15,370,787                  18%
           J9001                           $68,417,727           $26,547,997                 39%          $10,622,135                  16%
           J9025                          $183,229,371           $52,110,919                 28%          $36,989,197                  20%
           J9033                          $205,375,262           $34,202,115                 17%          $33,510,321                  16%
           J9035                          $916,856,239          $148,664,574                 16%         $147,132,358                  16%
           J9041                          $314,484,519          $105,721,054                 34%          $97,312,473                  31%
           J9055                          $237,004,599           $37,443,123                 16%          $36,687,839                  15%
           J9171                          $361,874,603           $89,950,074                 25%          $98,110,554                  27%
           J9201                          $255,099,464           $90,458,815                 35%          $53,991,886                  21%
           J9217                          $259,416,825           $69,616,130                 27%          $57,506,084                  22%
           J9263                          $444,619,885           $86,212,530                 19%          $81,153,644                  18%
           J9264                          $111,742,094           $17,878,362                 16%          $17,777,030                  16%
           J9303                           $49,123,947             $7,464,960                15%           $7,337,807                  15%
           J9305                          $415,627,110          $105,889,772                 25%         $102,565,013                  25%
           J9310                        $1,242,467,898          $458,527,642                 37%         $354,825,987                  29%
           J9355                          $378,059,453          $108,019,246                 29%          $89,910,401                  24%
           J9395                          $116,516,160           $19,180,875                 16%          $19,004,330                  16%
           Q4074                           $58,966,632           $14,645,874                 25%          $11,273,438                  19%
           Totals                     $13,877,622,705         $3,081,579,916                 22%      $2,734,925,646                   20%

         Notes: Total Part B expenditures were calculated using 2011 figures for physician, outpatient hospital, and durable medical
         equipment claims. Rebates based on average manufacturer price and average sale price for 2011 were calculated after
         removing claims for drugs purchased at 340B prices and claims for beneficiaries enrolled in both Medicare and Medicaid.
         Source: OIG analysis of 2011 National Claims History files, Centers for Medicare & Medicaid Services (CMS) 2011 Medicaid
         unit rebate amounts files, and CMS’s 2011 ASP files.




Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                                         23
(OEI-12-12-00260)
                   APPENDIXC
                   Agency Comments




                  DEPAR1MENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                           200 Independence Avenue SW
                                                                                           Washington, DC 20201




                               JUL l5 2013
              DATE:

               TO: 	          Daniel R. Levinson
                              Inspector- General
                                                 /S/
               FROM: 	        Marilyn Tawriner
                              Acting Admirlistrator

               SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "Medicare Could Collect
                          Billions If Pharmaceutical Manufacturers Were Required To Pay Rebates for Part
                          B Drugs" OEI-12-12-00260

               The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
               respond to the above subject draft report. The objectives for this report are to (1) Calculate the
               total rebates that could have been collected in 2011 had manufacturers been required to pay
               rebates for drugs covered under Medicare Part B; and (2) Identify implementation issues that
               would need to be addressed if such rebates were required. The OIG found that Medicare could
               have collected $3.1 billion if pharmaceutical manufacturers had been required in 2011 to pay
               average manufacturer prices (AMP) based rebates for 60 high-expenditure Part B drugs,
               representing 22 percent of spending for those drugs. Requiring manufacturers to pay ASP-based
               rebates for the same 60 drugs could have garnered Medicare $2.7 billion in rebate payments,
               representing 20 percent of spending. However, several implementation issues related to claims
               and data would need to be addressed if such a rebate program were implemented.

               The study also identified single-brand drugs (one brand-name drug produced by a single
               manufacturer and no generics) as the source for the majority of the estimated savings. However,
               the study did not estimate the administrative costs of implementing and maintaining such a
               program, or the impact on providers, manufacturers, or beneficiaries.

               The OIG recommendation and CMS response to the recommendation are discussed below.

               OIG Recommendation

               The OIG recommends that CMS examine the additional potential impacts of establishing a
               prescription drug rebate program under Medicare Part B and, if appropriate, seek legislative
               change. As part of its consideration of a Medicare Part B prescription drug rebate program,
               address administrative issues that may hinder rebate collections in Part B.




Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs                                        24
(OEI-12-12-00260)
Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs   25
(OEI-12-12-00260)
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of David Tawes, Regional
                   Inspector General for Evaluation and Inspections in the Baltimore regional
                   office; Patricia Wheeler, Regional Inspector General for Audit Services in
                   the Dallas regional office; Michael Armstrong, Regional Inspector General
                   for Audit Services in the Boston regional office; and Stephen Conway,
                   Director of Advanced Auditing Techniques.
                   Office of Audit Services staff from the Dallas regional office who
                   conducted this study include Paul Chesser and Kelsey Mitchell. Office of
                   Audit Services staff from the Boston regional office who conducted this
                   study include Robert Broadhurst, Amy Harriman, Karen Lowe,
                   Judith Reilly, and Leah Scott. Office of Audit Services staff from the
                   Centers for Medicare & Medicaid Audits Division who conducted this
                   study include Jeffrey Cohen. Office of Evaluation and Inspections staff
                   from the Baltimore regional office who conducted the study include Bahar
                   Adili. Central office staff who provided support include Clarence Arnold,
                   Mandy Walz, Meghan Kearns, and Christine Moritz.




Medicare Could Collect Billions If Manufacturers Were Required To Pay Rebates for Part B Drugs   26
(OEI-12-12-00260)
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
